<html>
<title> - REAUTHORIZATION OF THE JUVENILE JUSTICE AND DELINQUENCY PREVENTION ACT: PROTECTING OUR CHILDREN AND OUR COMMUNITIES</title>
<body><pre>[Senate Hearing 110-872]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 110-872
 
REAUTHORIZATION OF THE JUVENILE JUSTICE AND DELINQUENCY PREVENTION ACT: 
              PROTECTING OUR CHILDREN AND OUR COMMUNITIES 

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 5, 2007

                               __________

                          Serial No. J-110-65

                               __________

         Printed for the use of the Committee on the Judiciary

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-812 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 











                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director










                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................     3
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................   224
Kennedy, Hon. Edward, a U.S. Senator from the State of 
  Massachusetts. prepared statement..............................   221
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania, prepared statement...............................   234

                               WITNESSES

Ambrose Ann Marie, Director, Bureau of Child Welfare and Juvenile 
  Justice Services, Harrisburg, PA...............................    10
Bilchik Shay, Founder and Director, Center for Juvenile Justice 
  Reform, Georgetown University Public Policy Institute 
  Washington, DC.................................................     6
Flores, J. Robert, Administrator, Office of Juvenile Justice and 
  Delinquency Prevention, U.S. Department of Justice, Washington.     5
Garton, Deirdre Wilson, Chair, Governor's Juvenile Justice 
  Commission, Madison, WI........................................     8
Miranda, Richard, Chief, Tucson Police Department, Tucson, AZ 
  Delinquency Prevention, U.S. Department of Justice, Washington, 
  DC.............................................................    12

                         QUESTIONS AND ANSWERS

Responses of Ann Marie Ambrose to questions submitted by Senators 
  Leahy, Schumer, Kohl, Kennedy, Feingold and Durbin.............    29
Responses of Shay Bilchik to questions submitted by Senators 
  Leahy, Kennedy, Feingold and Durbin............................    64
Responses of Robert J. Flores to questions submitted by Senators 
  Leahy, Feingold and Kennedy....................................    84
Responses of Garton, Deirdre to questions submitted by Senators 
  Leahy, Feingold, Kennedy, Kohl and Schumer.....................    91
Responses of Richard Miranda to questions submitted by Senators 
  Leahy, Kennedy and Feingold....................................   156

                       SUBMISSIONS FOR THE RECORD

Ambrose Ann Marie, Director, Bureau of Child Welfare and Juvenile 
  Justice Services, Harrisburg, Pennsylvania, statement..........   164
Bilchik Shay, Founder and Director, Center for Juvenile Justice 
  Reform, Georgetown University Public Policy Institute 
  Washington, DC, statement......................................   176
Flores, J. Robert, Administrator, Office of Juvenile Justice and 
  Delinquency Prevention U.S. Department of Justice, Washington, 
  DC, statement..................................................   206
Garton, Deirdre Wilson, Chair, Governor's Juvenile Justice 
  Commission, Madison, Wisconsin, statement......................   214
Miranda, Richard, Chief, Tucson Police Department, Tucson, 
  Arizona, Delinquency Prevention, U.S. Department of Justice, 
  Washington, DC, statement......................................   226


REAUTHORIZATION OF THE JUVENILE JUSTICE AND DELINQUENCY PREVENTION ACT: 
              PROTECTING OUR CHILDREN AND OUR COMMUNITIES

                              ----------                              


                      WEDNESDAY, DECEMBER 5, 2007

                              United States Senate,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:14 a.m., in 
room 226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Kohl, Feingold, and Specter.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning, everyone. The thought 
occurred to me this morning, as I saw traffic backed up all 
around here because we're having a light dusting of snow, I was 
in Vermont, at home, two days ago and happened to have the 
radio on. They said, oh, in other news, we expect a light 
dusting of snow today, no more than four to five inches, and 
went on to other news.
    Here, we expect maybe as much as an inch of snow. They've 
been interrupting the news every two minutes to create the 
appropriate degree of panic in everybody who might be around. I 
can mix many analogies, and I'll probably stop with this, but I 
live on a dirt road, about 1,000 feet up on the side of a 
little mountain, and we'll have 12 inches of snow overnight and 
the school bus will be rolling by on time in the morning. The 
irony is, of course, this area has far, far more snow removal 
equipment per mile than we have in the whole State of Vermont. 
Interesting, but not the issue that brings us here today.
    Today we consider the important issue of how we can best 
help our communities and protect what is our most precious 
asset, our children--and in the case of some of us, our 
grandchildren--not only by keeping them safe and out of 
trouble, but also by helping to ensure they have the 
opportunity to become productive adult members of society. I 
want to thank Senators Specter, Kennedy, and Durbin for their 
leadership on this issue, but I particularly thank Senator 
Kohl, who has long been committed to this issue. He will join 
in chairing this hearing today.
    The Juvenile Justice and Delinquency Prevention Act sets 
out Federal policy and standards for the administration of 
juvenile justice in the States. It authorizes key Federal 
resources for States to improve their juvenile justice systems, 
and for communities to develop programs to prevent children 
from getting into trouble. The reauthorization of this 
important legislation gives us a good opportunity not only to 
examine, but really to reexamine, Federal juvenile justice 
policy. That way, when we find those things that are working 
we'll reinforce them, and if they're not working, then we 
should change them.
    The Washington Post reported last week on a study by the 
Centers for Disease Control and Prevention that we should 
consider. The CDC determined that children who were held in 
adult prisons committed more crimes, more serious crimes, when 
they are released than children with similar histories who are 
kept in juvenile facilities. After years of pressure to try 
more and more children as adults and to send them to adult 
prisons, we need to seriously consider whether that policy is 
working, especially in light of strong evidence to the 
contrary.
    Now, I was a prosecutor, as I've said many times here, for 
eight years. I know well the importance of holding criminals 
accountable for their crimes with strong sentences. But we're 
talking about children. We also have to think about how best to 
help them become responsible and contributing members of 
society as adults, because after all, what we want to do is 
keep us all safer. That would keep us safer.
    As I've observed before, Congress and the past 
administration--the Clinton administration's strong support for 
State and local enforcement in the '90s with the COPS programs 
and other key grant programs brought about historic declines in 
crime. Crime went down even as our country grew in size. But 
the gutting of these programs by this administration and the 
recent Republican controlled Congresses has contributed to a 
reverse of that trend, the recent increases in crime rates.
    I'm not being partisan when I'm saying we can't just write 
blank checks to law enforcement in Iraq. We've lost a billion 
and a half that nobody knows where it went, thousands and 
thousands of weapons that have disappeared. That was done as 
though, of course we've got to do that, and we pay for it by 
cutting out the programs in America, the law enforcement 
programs in America. It makes no sense.
    The Office of Management and Budget says the administration 
may be proposing further cuts in funding to law enforcement 
next year. You know, law enforcement is not a Democratic or 
Republican issue. It's something that helps all of us. They 
shouldn't be doing this. I'm also afraid that similar trends 
are evident in the juvenile justice field. Effective prevention 
programs are facing significant cuts in Federal support. That 
creates a dangerous fact. We have to reverse that, help our 
communities implement programs to help children turn their 
lives around. Again, we're all better off if we do that.
    I've long supported a strong Federal commitment to 
preventing youth violence. I've worked hard and passed 
reauthorizations of this legislation, as have many of the 
Senators on this committee. We've learned with time the 
importance of boosting support for State and local law 
enforcement and balancing strong law enforcement with 
prevention programs. Now, some problems persist, including 
disturbing episodes of mistreatment of children and the 
continuing disproportionate representation of minorities in the 
juvenile justice system. We have to find out how to solve that.
    I want to thank the many prominent Vermont representatives 
of law enforcement and the juvenile justice system, and the 
prevention-oriented nonprofits that have spoken to me in 
support of reauthorizing this important Act. I meet with many 
of them in Vermont, and some I just run into in the grocery 
store when I'm getting my groceries at home. They've helped to 
shape my understanding. I know that many on this committee have 
heard from passionate leaders in their State. So, I thank the 
distinguished panel of witnesses for coming.
    I'm glad it includes people with juvenile justice 
experience not only in large urban communities, but also in 
rural areas because they are important too, as anybody from a 
rural State knows. We have representation from the Federal, 
State, and local level, people with years of experience both in 
law enforcement programs aimed at keeping children out of the 
criminal justice system. So, I will put my full statement in 
the record.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Chairman Leahy. I see Senator Feingold is here. Senator 
Feingold, of course, has been one of the leaders in the U.S. 
Senate in this area ever since he arrived here.
    Russ, did you want to say something?

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Yes, Mr. Chairman. I thank you. Good 
morning. I want to thank the Chairman for holding this hearing. 
I also want to thank the witnesses for being here today to 
discuss this important issue. I am especially happy to see my 
friend from Wisconsin, Deirdre Wilson Garton, who's done such 
excellent work for the Wisconsin Governor's Juvenile Justice 
Commission.
    This is a critical time for juvenile justice. Since 
Congress last reauthorized the JJDPA in 2002, there have been 
changes, some of them good and some of them, frankly, not so 
good.
    One of the positive developments has been the ongoing 
accumulation of evidence telling us what is working in the 
field of juvenile justice and what is not working. Scientific 
research on adolescent brain development has shed light on the 
fallacy of treating juvenile offenders the same way we treat 
adults. The dangers of pursuing such an approach are 
increasingly clear. Just last week, the Centers for Disease 
Control published a study by an independent panel of community 
health experts, confirming that placing juvenile offenders in 
the adult criminal system leads to higher recidivism rates and 
can be detrimental to the health and well-being of the young 
person.
    At the same time, recent experience has shown us the 
successes that can result from community-based programs that 
focus on prevention and intervention. An independent panel, 
convened in 2004 by the National Institutes of Health, found 
that a number of these programs have proven effective at 
reducing arrests, out-of-home placement, and violent behaviors. 
Ms. Garton will be telling us today about some programs that 
have had significant, measurable success in Wisconsin, 
including a program that has had a dramatic effect in one of 
the most troubling areas of the juvenile justice system, and 
that is disproportionate minority contact. These successes in 
reducing and preventing juvenile offenses are accompanied by 
significant cost savings to our States and communities.
    These programs rely heavily on Federal funding through the 
JJDPA and other grant programs, and that's where the bad news 
comes in. In recent years, there has been a precipitous decline 
in Federal funding for the very programs that have been shown 
to work, and for the State infrastructure that enables 
effective use of those programs. Wisconsin JJDPA funding has 
dropped from about $8 million in 1998 to less than $2 million 
this year.
    As the Federal commitment has dropped off, there is some 
evidence suggesting that the rate of violent juvenile crime, 
which had been declining steadily for many years, has begun in 
the past couple of years to climb again. This is unacceptable. 
Dealing effectively with at-risk youth and juvenile offenders 
and preventing them from becoming adult offenders is one of the 
most important investments we can make in the safety of our 
communities.
    The Federal Government should fulfill its responsibility to 
fully fund the JJDPA and similar programs, such as the Juvenile 
Accountability Block Grant. Indeed, we should expand on the 
successes of these programs through legislation such as the 
Precaution Act, which Senator Specter and I introduced to help 
further integrate prevention and intervention programming into 
traditional law enforcement initiatives and to provide more 
information to local officials about what strategies are most 
effective.
    I hope, Mr. Chairman, that today's hearing galvanizes us to 
recognize the importance of the JJDPA and similar programs, and 
to rededicate ourselves to giving our States and communities 
the support they need in this critical endeavor.
    Mr. Chairman, thank you for letting me make an opening 
statement.
    Chairman Leahy. Thank you very much. Senator Specter, who 
has taken a strong interest in this and is the senior 
Republican on this committee, is over at the Supreme Court this 
morning. I'll put his full statement in the record, as well as 
that of Senator Kennedy.
    [The prepared statements of Senator Specter and Senator 
Kennedy appear as a submission for the record.]
    Chairman Leahy. Normally I swear in a panel. It's not 
necessary on this panel. We will begin with Bob Flores, who's 
the Administrator of the Office of Juvenile Justice and 
Delinquency Prevention, OJJDP, for those who like alphabets, at 
the U.S. Department of Justice. He served as Vice Chairman of 
the Coordinating Council of Juvenile Justice and Delinquency 
Prevention from '89 to '97, and--correct me if I'm wrong in 
this--he was senior trial attorney and Acting Deputy Chief in 
the Child Exploitation and Obscenity Section in the Criminal 
Division of the Department. He received his J.D. from Boston 
University. So, he understands snow.
    Go ahead, Mr. Flores.

    STATEMENT OF J. ROBERT FLORES, ADMINISTRATOR, OFFICE OF 
JUVENILE JUSTICE AND DELINQUENCY PREVENTION, U.S. DEPARTMENT OF 
                    JUSTICE, WASHINGTON, DC

    Mr. Flores. Good morning, Chairman Leahy. I would like to 
express my thanks for the opportunity to appear today on behalf 
of the Department of Justice's Office of Justice Programs. I'm 
pleased to be here to discuss the reauthorization of the JJDP 
Act and the Department of Justice's efforts to address juvenile 
crime and delinquency.
    I'm thankful that the President has made the focus on the 
needs of children to be safe and supported a priority. His 
remarks on boys and gang-involved youth during his 2005 State 
of the Union address, the First Lady's efforts on behalf of 
youth across our country, and the Attorney General's support to 
address predators of children all serve to undergird our 
efforts at OJJDP.
    The original JJDP Act addressed certain dangers and 
practices in the way children were confined. Today the Act not 
only continues to serve that important goal, but advances many 
other critical needs as well. The JJDP Act keeps the Nation 
focused on prevention and intervention to balance necessary 
enforcement initiatives. Moreover, it also serves to encourage 
States to make sure that the juvenile systems strive to be fair 
and effective. For that reason, the Department embraces the 
four core requirements and supports their continued use.
    In the most recent reauthorization, Congress made 
modifications to the requirements and the penalties for non-
compliance. Through concerted efforts, OJJDP has been able to 
resolve State compliance deficiencies, and also reduce the 
number of non-participating States from 3 to 1, and that State 
has stated its desire to come into compliance and has begun 
efforts to do so.
    I urge the Congress not to relax the core requirements. 
OJJDP also strives to leverage its work and its resources to 
better serve children. Through the Coordinating Council on 
Juvenile Justice and Delinquency Prevention, which I chair, the 
Federal Government is improving its ability to coordinate 
Federal programs related to delinquency prevention, missing and 
exploited children, and detention and care of juveniles.
    We have been successfully working on improving access to 
job training for youth leaving detention and aging out of 
foster care, organizing and coordinating the many mentoring 
initiatives being carried out by the Federal Government and 
bringing together experts to begin work on addressing the 
physical and mental health needs of children in the juvenile 
justice system.
    OJJDP has also encouraged coordination at the State and 
local level to address serious violent crime. Since 2003, 
OJJDP's gang reduction pilot program has succeeded in making 
local efforts to reduce youth gang activity more effective by 
combining local, State, and Federal resources.
    Just recently, the City of Richmond reported a significant 
improvement in their city's crime ranking. This was, in part, 
due to a focus on collaboration and targeted strategies, 
including implementation of the gang reduction program. Already 
in 2007, the city is showing a 12 percent decrease in major 
crimes.
    Another example of OJJDP's partnerships is it's Internet 
Crimes Against Children Task Force program that works to 
develop effective responses to Internet-based child 
exploitation and pornography. Last year, ICAC investigations 
led to more than 2,000 arrests, more than 9,600 forensic 
examinations, and just this past August the Task Forces and 
their affiliates made their 10,000th arrest since the program 
started in 1998. As you know, the Department's Project Safe 
Childhood is adding the considerable abilities and resources of 
U.S. Attorneys to this fight.
    Finally, OJJDP continues to invest in research and data 
collection. Accordingly, we've made sizeable investments in 
studying female delinquency, gangs, innovative prevention 
strategies, pilot programs, and studies while maintaining our 
most critical data collection efforts.
    In closing, the Department of Justice is committed to 
supporting programs that have the greatest potential for 
improving the juvenile justice systems across our country and 
combatting juvenile delinquency.
    Mr. Chairman, I appreciate the opportunity to testify 
before the committee on this important subject. I'd ask that my 
entire written statement be entered into the record, and I'd be 
pleased to answer any questions. Thank you.
    Chairman Leahy. Well, thank you very much. Incidentally, I 
had mentioned earlier the Vermonters who are interested in 
this. I'd just note for the record the Vermont representatives 
of law enforcement and the juvenile justice system, and 
prevention-oriented nonprofits who have been so supportive of 
the Juvenile Justice and Delinquency Prevention Act 
reauthorization and have given me so much feedback.
    Among the many Vermonters who have been particularly 
helpful are Chief Steve McQueen of the Winooski Police 
Department, Richard Smith, chair of the Children and Family 
Council for Prevention Programs, and Ken Schatz of the 
Burlington City Attorney's Office. I would tell our superb 
recorder of these events that we will give her all those names.
    Shay Bilchik is the founder and director of the Center for 
Juvenile Justice Reform at Georgetown University's Public 
Policy Institute. He previously served as the president and CEO 
of the Child Welfare League of America. He is the former head 
of OJJDP at the U.S. Department of Justice. He served as a 
prosecutor in Miami, Florida for several years. He received his 
B.S. and J.D. from University of Florida, a university that 
never closes down for snow.
    Go ahead.

  STATEMENT OF SHAY BILCHIK, FOUNDER AND DIRECTOR, CENTER FOR 
 JUVENILE JUSTICE REFORM, GEORGETOWN UNIVERSITY PUBLIC POLICY 
                   INSTITUTE, WASHINGTON, DC

    Mr. Bilchik. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today to speak on this important, vital 
piece of legislation and the critical issues that it addresses. 
As a former prosecutor and former Administrator of OJJDP, this 
is an area of tremendous importance for me as an individual.
    I sit before you today with good news: today, youth crime 
and delinquency in this country remain near the lowest levels 
seen in the past three decades. The recent data show a dramatic 
reduction in the rate and seriousness of juvenile delinquency 
over the past 10 to 12 years.
    Although we've seen a recent uptick in juvenile arrests, as 
you mentioned, in some communities, according to the FBI crime 
statistics, juvenile arrests for serious offenses comprised 
just 5 percent of all juvenile arrests, with arrests for rape 
and murder constituting less than one-third of one percent of 
all juvenile arrests.
    While I begin my comments with these positive notes, we do 
continue to face challenges in the juvenile justice system such 
as the over-reliance on detention and incarceration as a 
response to juvenile crime; the continued detention of status 
offenders despite Federal prohibition; pervasive racial 
disparities in the justice system; the increased placement of 
children at risk of abuse, sexual assault, and suicide in adult 
jails, despite the Act's original intentions; a workforce that 
is not given the tools it needs to succeed in doing the life-
altering work it is asked to do each and every day in the 
field; and a reduction in the investment of what we know works 
to prevent and reduce juvenile delinquency.
    I elaborate on each of these items in my testimony, so I 
will not go into great detail at this moment.
    The programs and approaches that we know work to prevent 
and reduce delinquency currently lack adequate Federal, State, 
and local support needed to demonstrate their worth and to 
develop them fully. For example, the Title V incentive grants 
for local delinquency prevention programs, commonly known as 
the Community Prevention Grants Program, is the only Federal 
funding source dedicated solely to the prevention of youth 
delinquency, crime, and violence. Prevention activities, such 
as those supported by Title V, have been so woefully 
underfunded in recent years that they can only reach a fraction 
of the youth who would benefit from them.
    To address some of the pressing issues I mentioned in 
juvenile justice and to take advantage of the research that we 
now have that shows what works and what doesn't, we need to 
strengthen the Act and elevate and restore the capacity of the 
Office of Juvenile Justice and Delinquency Prevention.
    The Act has created a unique partnership between agencies 
of the Federal Government and leaders in the juvenile justice 
field in the States and localities as an integrated part of the 
structure of that Act. The Office of Juvenile Justice and 
Delinquency Prevention is uniquely positioned to provide 
national leadership, coordination, and resources to prevent and 
respond to juvenile delinquency and victimization. It is the 
one place where the courts, prosecutors, defenders, probation, 
community-based organizations, law enforcement, and State and 
local leaders in the field can turn to for support.
    It is the intent of the Act that OJJDP be in a position to 
sponsor numerous research, program, and training initiatives, 
develop priorities and goals, and set policies to guide Federal 
juvenile justice issues, disseminate information about juvenile 
justice issues, and award funds to States to support local 
programming nationwide.
    Given that there are, in effect, 56 different juvenile 
justice systems in the States, the District of Columbia and the 
territories, not to mention tribal courts, it's critical that 
juvenile justice have a dedicated focus and a home within the 
Federal Government as a leadership office.
    It should be made clear in this reauthorization that the 
office is expected to have in place a full range of services to 
be provided in support of the Act, including research and 
evaluation, training and technical assistance, dissemination of 
research and evaluation findings, and demonstration of new 
programs.
    It should be explicit in the Act that it is the expectation 
of Congress that these functions are to be carried out by OJJDP 
and not delegated to other agencies within the Office of 
Justice Programs. In addition, there should be technical and 
financial support for national nonprofit associations to 
represent the Nation's State advisory groups to bolster the 
field as we attempt to grow it.
    In my testimony, Mr. Chairman, I talk about strengthening 
the core protections: the deinstitutionalization of status 
offenders, the jail and lock-up removal, as well as DMC 
requirements. I encourage you to explore those during the 
course of this hearing. They are important to the field.
    My last item I will focus on today is the workforce. We 
have workers out in the field each and every day, hundreds of 
thousands of them, trying to support the juvenile justice field 
and benefitting young people who come into the system. We need 
to be creative in how we reauthorize this Act to better support 
them in doing that work.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much. That is one of the 
reasons, of course, for the hearing, is we want to know what 
has worked and what hasn't worked and go forward on that, as 
Senator Feingold said, and the statements from Senator Kennedy 
and Senator Specter also reflect that.
    [The prepared statement of Mr. Bilchik appears as a 
submission for the record.]
    Chairman Leahy. Deirdre Wilson Garton serves as the chair 
of the Planning Committee of the Federal Advisory Committee on 
Juvenile Justice at OJJDP. She's the chair of the Wisconsin 
Governor's Juvenile Justice Commission. She is also president 
of GartonWorks, Inc., a Wisconsin-based software development 
company. With all these, I must say, I appreciate you taking 
the time to come here. She previously served as a Deputy 
District Attorney
    in the Juvenile Division for, is it Dane County, Wisconsin 
from '93 to '96, worked on systems improvements with regard to 
abuse and neglect of children. She has her B.A. from Smith, 
J.D. from the University of Wisconsin.
    Ms. Garton, please.

STATEMENT OF DEIRDRE WILSON GARTON, CHAIR, GOVERNOR'S JUVENILE 
             JUSTICE COMMISSION, MADISON, WISCONSIN

    Ms. Garton. Good morning, and thank you very much for 
asking me to testify this morning about the reauthorization of 
the JJDP Act.
    As a former prosecutor, my colleagues in law enforcement 
and I know that using evidence-based practices and programs 
works best for the prevention of delinquency. A significant 
body of research tells us that. Title V of the JJDP Act, and 
its strong focus on evidence-based prevention, can have an 
instrumentally positive impact on delinquency prevention.
    Using Title V, our State has made progress addressing one 
of the core requirements: disproportionate minority contact, or 
DMC. In Wisconsin, disparities occur in both the juvenile and 
the adult justice systems, and I can tell you that it's not an 
easy issue to address. Each community is different. What's 
happening at each discretionary decision point is particular to 
each community.
    In the early 2000s, one of our SAG's pilot DMC counties, 
Rock County, had among the worst disparities in the State. At 
the same time, Federal funding was slashed by 50 percent. With 
the Title V grant, among other funds, Rock County put in place 
a comprehensive approach to analyze and reduce disparities 
using evidence-based detention, diversion, youth mentoring, and 
accountability programs. The results have been excellent, 
significantly reducing disparities. Indeed, Rock County just 
received an award from OJJDP for its work.
    But the work isn't done. Rock County needs better 
coordination with law enforcement, improved substance abuse 
services, employment services, and in-home family services.
    In another excellent program also recognized by OJJDP, 
Milwaukee County, in partnership with a community- based 
organization called Running Rebels, has used Federal funds from 
a SAG grant to develop a very successful in-community firearms 
offenders program that has cut the recidivism rate to half of 
those youth that are sent to corrections.
    Yet, as Federal funds have been severely cut and earmarked 
over the last seven years, gains are reversing and correctional 
placements are rising, as illustrated by the chart in my 
written testimony on page 4. There are fewer treatment slots in 
the firearms programs and no new programs to meet the changing 
needs.
    DMC is the top concern across the States, as identified by 
a majority of the SAGS, yet OJJDP's commitment to DMC has waned 
in the last several years. Successful programs like Milwaukee 
and Rock County aren't being evaluated for replication and 
little has been done to facilitate critical dialogue among 
schools, law enforcement, and juvenile justice system folks to 
promote innovations at the school level.
    Why the waning focus on DMC? We don't know. The annual 
report to Congress required to be submitted by OJJDP has not 
been submitted for two years. OJJDP has not published 
regulations from the 2002 reauthorization. In the absence of 
clear reporting and regulations, OJJDP sets forth new 
interpretations of rules and regulations without SAG, State, or 
public input.
    Furthermore, OJJDP's current focus on compliance with the 
core requirements of the Act have taken a non- supportive tone. 
Wisconsin has struggled with DSO-- deinstitutionalization of 
status offenders--and has been penalized appropriately: 20 
percent of our Title II funds. But other States, also out of 
compliance, have not been penalized. Why? It's hard to know 
without clear and consistent standards and transparent 
decision- making.
    As I close, I hope you'll take away three major thoughts. 
First, the Federal juvenile justice partnership with the States 
is in danger from inadequate and misdirected funding, lack of 
focus on what works, and a deteriorating relationship with 
OJJDP.
    Second, the DMC core requirement needs attention and 
support. We want to address DMC and so do other States. Third, 
the scheme the Congress fashioned in the JJDP Act was, and is, 
brilliant. Without the Federal/State juvenile justice 
partnership and funds I would not be able to report to you 
that, since 1995, Wisconsin's juvenile index crimes are down by 
50 percent and their non-indexed crimes are down by 21 percent. 
That is building community safety. As a former prosecutor and a 
citizen, that speaks to me.
    Thank you so much for the opportunity to testify this 
morning. I would be happy to answer any questions.
    Chairman Leahy. Well, thank you very much. Of course, your 
home State Senator -- you've had both of your home State 
Senators here today.
    [The prepared statement of Ms. Garton appears as a 
submission for the record.]
    Chairman Leahy. Ann Marie Ambrose is the Director of Child 
Welfare and Juvenile Justice Services at the Office of 
Children, Youth and Families, part of the Pennsylvania 
Department of Public Welfare. She supervises child abuse 
investigations, provides technical assistance for public and 
private agencies. Before assuming this position, she worked as 
an advocate for youth in the juvenile justice system in 
Philadelphia, where she spent 13 years as an attorney for the 
Defender Association. She received her J.D. from Emory 
University Law School, as did my oldest son Kevin.
    Please go ahead.

   STATEMENT OF ANN MARIE AMBROSE, DIRECTOR, BUREAU OF CHILD 
WELFARE AND JUVENILE JUSTICE SERVICES, HARRISBURG, PENNSYLVANIA

    Ms. Ambrose. Good morning. Thank you for the opportunity to 
be here today to represent Pennsylvania, as well as juvenile 
justice administrators and advocates on the criminal importance 
of the reauthorization of the Juvenile Justice and Delinquency 
Prevention Act.
    JJDPA requires every State to have a State advisory group. 
In Pennsylvania, the establishment of our State advisory group, 
the Juvenile Justice and Delinquency Prevention Committee, has 
provided tremendous leadership and commitment to improving the 
juvenile justice system and to provide a consistent focus on 
delinquency prevention.
    Pennsylvania has used our Federal dollars well through the 
efforts of our SAG by promoting public protection, while 
protecting youth and providing them with life opportunities. 
Our SAG has accomplished a great deal with a relatively small 
amount of JJDPA funding. Additional funding would enable the 
SAG to continue to promote juvenile justice and delinquency 
prevention reform.
    Pennsylvania has a proud history of full compliance with 
the core requirements of the JJDPA. We believe in the fair, 
humane, and just treatment of all youth in the juvenile justice 
system. We believe that all youth have potential to be 
productive systems through our juvenile justice mission of 
balanced and restorative justice.
    Through the years, our committee has used the goals of the 
JJDPA and critical Federal funding as a springboard for 
juvenile justice reform that has become a national model. 
Devastating cuts in Federal funding over the last few years 
have forced the committee to reevaluate our work and focus even 
more on prevention, as well as sustainability of our programs.
    Our priority areas are aligned with other States. 
Pennsylvania is part of a national organization of State youth 
service agencies called the Council of Juvenile Correctional 
Administrators, which has taken the lead on providing training 
and support on many of the critical issues in juvenile justice 
today.
    Across the country, juvenile justice leaders are working to 
educate elected officials and policymakers about youth 
development and explain that empowerment models of treatment 
for delinquent youth are not inconsistent with, but in fact 
complement, community protection.
    Pennsylvania's key priority areas for improvement are 
evidence-based prevention and intervention practices, 
disproportionate minority contact, after-care, and behavioral 
health. Since 1998, our SAG has invested in over 160 evidence-
based prevention and intervention programs, such as multi-
dimensional treatment foster care, functional family therapy, 
and multi-systemic therapy.
    In the absence of any good research that establishes that 
public safety is enhanced by prosecuting juveniles in adult 
court or placing them in institutions, Pennsylvania has 
invested in supporting youth and families in their communities.
    In 2003, our SAG's priorities became the basis for our work 
with the McArthur Foundation's Model for Change initiative. 
Pennsylvania was chosen as the first State to participate due 
to its favorable reform climate and leadership's interest in 
accelerating the pace of juvenile justice reform. Having a 
strong State advisory group was a key factor in Pennsylvania's 
selection.
    Pennsylvania has created a rich continuum of care for youth 
in the juvenile justice system. A range of options are 
available to place youth in the most appropriate setting based 
on a balanced and restorative justice framework.
    I am proud to say that, given Pennsylvania's size, we only 
have 600 or so secure placement bets. Pennsylvania continues to 
evaluate whether we can continue to decrease the use of 
placement and increase the use of effective community-based 
programs without compromising community safety. In 2005, of 
45,504 delinquent dispositions, only 3,487 youth were placed in 
out-of-home care.
    Much of our good work has been built around the core 
protections for children found in the JJDPA. Those protections 
should be maintained and strengthened through the JJDPA 
reauthorization. Pennsylvania's work, like that of other 
States, has been made increasingly difficult because of 
significant cuts in Federal justice funding.
    Despite this significant decrease in funding over the 
years, the Federal office must have a critical role in 
advancing juvenile justice reform. OJJDP should be charged with 
not only holding States accountable for adhering to the goals 
of the JJDPA, but for providing technical assistance to States 
in order to achieve those goals.
    Set funding should also be made available for States that 
are able to demonstrate the ability to create innovative and 
effective local initiatives that provide treatment to youth 
involved in the juvenile justice system, while keeping 
communities safe.
    I hope that I've been able to communicate the critical 
importance of the reauthorization of the JJDPA. It has helped 
create a synergy in Pennsylvania's juvenile justice system that 
recognizes the need to provide the opportunity for redemption 
of our troubled youth, while valuing the importance of 
community protection and the community's critical role in 
achieving youth redemption.
    Chairman Leahy. Thank you very much, Ms. Ambrose.
    [The prepared statement of Ms. Ambrose appears as a 
submission for the record.]
    Chairman Leahy. Our next witness is Chief Richard Miranda, 
Chief of the City of Tucson Police Department in Tucson, 
Arizona. Chief Miranda is, as many of us like to see in law 
enforcement, someone who started in the ranks as an officer in 
the City of Tucson Police Department. During the 30 years 
you've been there, you've seen it grow and change 
substantially. It's one of the fastest-growing cities in 
America.
    You became Chief. You administer a staff of over 1,300 
employees. He's received both the Distinguished Medal of 
Service and the Distinguished Medal of Merit. He received his 
B.A. from the University of Arizona, his M.A. from Northern 
Arizona University.
    Chief, I'm delighted you took the time to come and join us 
today. Please go ahead.

STATEMENT OF RICHARD MIRANDA, CHIEF, TUCSON POLICE DEPARTMENT, 
                        TUCSON, ARIZONA

    Chief Miranda. Thank you, Senator. Thank you for the 
opportunity to be here today to represent the men and women of 
the Tucson Police Department and address you about the 
reauthorization of the Juvenile Justice and Delinquency 
Prevention Act.
    In my position as Chief of Police, I am not intimately 
familiar with the more technical aspects of the Act, but I do 
know from a practitioner's perspective about the crisis of 
over-representation of young people of color in our justice 
system. Our offices are on the front line of dealing with 
youths, families, and communities, and there is no doubt that a 
majority of the youth and families that are being served by our 
local justice apparatus are youths of color.
    Indeed, in Tucson, issues of crime as they relate to race, 
ethnicity, and incarceration are important to all members of 
our community. In Tucson, youth of color comprise 47 percent of 
our court-aged population, but are detained at a rate of 67 
percent. My department has been participating with the 
cooperation of stakeholders that came together to analyze the 
root cause of this dynamic.
    Police, prosecutors, probation, public defenders, schools, 
community service providers, and the courts have engaged with 
the W. Haywood Burns Institute and the Juvenile Detention 
Alternatives Initiative to determine whether this over-
representation is offense driven or the result of other 
factors.
    While there is no doubt that poverty and related issues 
outside the control of law enforcement can be significant 
contributors to delinquent behavior, we in Tucson wanted to 
examine whether the processes, policies, or strategies that we 
have in place exaggerate this over-representation. With that 
knowledge, we could be better able to serve our community.
    The members of the Tucson Police Department serve the 
community with pride and distinction. The successes we have 
achieved in policing have a foundation of trust and partnership 
with all the members of our community. I have the opportunity 
to lead a police department that, on a daily basis, 
demonstrates that your race, ethnicity, place of residence or 
birth does not determine the way justice is served.
    By oath, we are sworn to uphold the Constitution of this 
great country, and we believe strongly in the rights guaranteed 
to all. It is because of that great affinity for our 
Constitution that we have embarked on this project. It is our 
responsibility that we as law enforcement officers hold 
ourselves accountable to make sure we are doing everything we 
can to assure our communities that we are fair and equitable in 
our administration of the law.
    I am proud to tell the committee that we are the first 
police department in the country to engage in this level of 
examination. Hopefully, with the results of the project we will 
develop strategies that will conduct processes and put all 
young people on the right track to becoming contributing 
citizens of our great communities and cities.
    With the successes that I know we will achieve by 
participating in this project, you will provide incentives to 
other cities to follow our lead and develop systems of 
analysis.
    We are in an early phase of this analysis, and by the end 
of the month we will sample officers. From the sampling, we 
will conduct a comprehensive examination of the Tucson Police 
Department in our acts with children and provides families with 
whom we come in contact or provide service. With this initial 
review, we will be able to enhance our commitment to innovation 
and responsiveness to the issues and problems that face not 
only our community, but our great Nation.
    The youth of our great country deserve a commitment from us 
that we will make every effort to assure prosperity in the 
future. Therefore, I look forward, in 2008, to enhance our 
partnership with the Burns Institute in furthering and 
expanding this project to cities so as to reduce the amount of 
juvenile crime in our country.
    In closing, all law enforcement officers take an oath that 
commits them to the expectation of fairness and a lack of 
prejudice in the administration of justice. I am confident that 
we in law enforcement are taking every step possible to meet 
that expectation, and on a daily basis police officers 
throughout the country demonstrate that dedication to office.
    However, introspection and innovation must be the tenets 
that are part of every police department's charge. When issues 
and problems come forth from our community members, we must be 
responsive and develop conduits of communication that reflect 
remedy towards enhancing the quality of life for all of our 
citizens, irrespective of race, ethnicity, or side of town they 
reside in. Through the extension of funding of the Juvenile and 
Delinquency Act, we in law enforcement can continue to meet the 
mandates and goals that are making our Nation's youth 
contributing members of our great country.
    [The prepared statement of Chief Miranda appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Chief. I want to get 
back to you on a couple of the issues you raised.
    I'm just going to ask a couple of questions and then turn 
this over to Senator Kohl, who is the lead on this in the 
committee.
    Mr. Bilchik, I want to ask you, and I'm going to ask Ms. 
Ambrose--I'm asking both of you this question, and you can 
understand why. We originally intended this Act to have age-
appropriate treatments and punishments for juveniles rather 
than being placed in adult jails. How do we do this? 
Especially, how do we do it in rural areas? Is there a 
difference in the difficulty of doing it from urban to rural 
areas? Mr. Bilchik, why don't I start with you and then go to 
Ms. Ambrose?
    Mr. Bilchik. In answering the question about how we make 
sure that we are doing age-appropriate interventions, I should 
note that we are at such a different place, Senator Leahy, 
today as to where we were 10, 15, or 20 years ago in 
understanding evidence-based practice on a developmental arc.
    What we do, particularly for young children; what we do for 
adolescents; what we do for older adolescents; we have that 
knowledge now. The question is, are we willing to make the 
investment in that knowledge and work in partnership with 
States and localities to carry out and bring that to life?
    What's happened in recent years, in that we've seen the 
crime rate trend line going down, is a distraction. We've lost 
our focus on taking that level of knowledge and applying it in 
partnership with the Federal Government, State government and 
local government; with private and public investment in those 
strategies. I think if we did that, we would have much greater 
success in seeing those age-appropriate interventions come to 
life.
    The recent research that has come out from the CDC really 
confirms what we've known for years, which is that the transfer 
of young offenders into the adult court, into the adult prisons 
is counterproductive. We seem to have had this ``ah-ha'' moment 
with the release of the CDC report, but some of that research 
has been in place for 5 or 10 years already, some of it funded 
by OJJDP. So we know that transfer is counterproductive. We 
know what works in treating kids in the juvenile justice 
system. We need to get more serious about it and maintain those 
investments.
    In terms of your rural and urban question, there are 
countless examples where, in rural communities with the proper 
resources, they've been able to deliver those services through 
a variety of mechanisms. So when I talk to different 
communities about what works and what doesn't work, I like to 
cite what has been done, for example, about jail removal in 
relation to the Dakotas and what they've done around serving 
the kids in more rural areas; Indian Child Welfare issues, 
Indian tribal issues and juvenile justice. Some of those rural 
areas have really excelled in how they've worked with those 
young people; with a focus and commitment.
    Chairman Leahy. Ms. Ambrose, what do you say about that in 
rural areas? Thank you, Mr. Bilchik.
    Ms. Ambrose. I would agree with everything that Mr. Bilchik 
has said. In rural areas, I think it goes to the partnership 
that needs to be done between the Federal Government, the State 
government, and the local community. If folks are getting 
together, they're going to find a solution to this problem 
because it's the right thing to do for kids.
    The evidence is overwhelming that this has not been a good 
public policy and that we really need to work with prohibiting 
any youth from being held in adult jails. I think if we do 
create a partnership and a communication at those levels, the 
local folks are going to be willing to come up with a solution 
to the problem.
    Chairman Leahy. Is it an over-simplification or does it 
kind of hit it to say you can pay now or you can pay later?
    Ms. Ambrose. No. I absolutely--
    Chairman Leahy. If you pay now you might pay a lot less 
than what you pay later.
    Ms. Ambrose. Absolutely. I think the evidence is 
overwhelming with the community-based programming, that if you 
invest in multi-system therapy and functional family therapy, 
the outcomes 10 years later are going to be overwhelming, both 
in cost savings and community protection.
    Chairman Leahy. And Chief Miranda, as I was reading over 
your testimony last night and looking through some of this 
material, you talked about the partnership with the W. Haywood 
Burns Institute on the Juvenile Detention Alternatives 
Initiative to address--and you did in your testimony--the 
disproportionate number of minorities in the juvenile justice 
system.
    Yours was the first police department in the country to 
undertake such a detailed examination. I think that's very 
commendable. But what made you decide to do that? What prompted 
it? Was there a sudden moment, or was it something that became 
cumulative? What was it? The reason I ask, is I suspect that as 
a result of these hearings, some other departments may be 
looking at what you did.
    Chief Miranda. Senator, like I think all members of this 
panel have, I have a lot of contact with the youth in our 
community and I see that a lot of the Hispanic and black kids 
were going to jail in greater numbers than the white kids. 
Knowing some of these kids and knowing the families, I wanted 
to find out what the root causes of this over-representation 
was all about, because these kids have a valuable future in 
front of them and I wanted to be part of enhancing or being a 
conduit so that they could become productive citizens.
    The bottom line is, I just can't arrest away our problems. 
There have to be other alternatives, there have to be other 
processes to get these kids on the right track. If 
participating in this project exposes some of the issues in the 
department that are contributing to this over-representation, 
the outcomes will be good for the community.
    Chairman Leahy. I'm struck by that expression you just 
used: ``I can't arrest away the problem.'' If there's one thing 
I learned during my years as a prosecutor, it is exactly that. 
I think every police officer I ever knew said they'd much 
prefer that crime never happened than the ability to arrest 
after the fact. It would be a lot better off for the whole 
community if it doesn't. I may be following up with you.
    My time is up. I'm going to turn it over to Senator Kohl. I 
didn't want Ms. Garton or Ms. Flores to think that I was not 
interested in your testimony; I am. This is a matter we've 
wrestled with in our State. I did when I was prosecutor. We are 
not a State with a large number of minorities. In fact, we have 
probably the lowest percentage of minorities of any State in 
the country. But I am prompted to call a couple of our chiefs, 
at least, in the areas where we tend to have minorities and ask 
if the same thing has happened.
    Senator Kohl, thank you very much. You're in charge.
    Senator Kohl. Thank you very much, Senator Leahy.
    Well, folks, as we all know, the Juvenile Justice and 
Delinquency Prevention Act's two primary components are 
prevention, as well as rehab. While putting young people on the 
right path after they have run-ins with the law is very 
important, we would all prefer to keep them from getting into 
trouble in the first place.
    Title V, of course, is the only Federal program that is 
dedicated exclusively to juvenile crime prevention, and most of 
us strongly believe that the evidence-based prevention programs 
that it funds work very well, as well as being cost-effective.
    Many of you touched on the importance and effectiveness of 
prevention programs in your opening statements. You who work at 
the State level and local levels see the prevention programs as 
they work at the ground level. So, tell us, what have we 
learned about prevention programs since the last 
reauthorization of 2002? Do we indeed have a better sense of 
what prevention programs are the most successful? Ms. Garton?
    Ms. Garton. Well, I can talk about the Wisconsin 
experience. What I can say is that it's a little difficult to 
answer the question because the amount of money actually 
flowing into the State for specific prevention programs, in 
using the Act's paradigm, has been so drastically cut. In the 
last few years, Wisconsin has only received $50,000 for all of 
its Title V funds.
    So, nevertheless, the kinds of programs that do work are 
the sorts of programs that I highlighted in my testimony. 
Certainly Rock County DMC, comprehensive approach to 
disproportionate minority contact, would be one example. What 
is so critical, I think, about that and how it is supported by 
what OJJDP has done in terms of technical assistance, is 
bringing together the community, the justice stakeholders and 
the community stakeholders, to do the planning, the data 
analysis, and then to actually use that analysis to develop, 
program, and target the folks who need the help.
    So I think it's that combination of community stakeholders 
and data analysis which has been supported by the kind of 
technical assistance that has come from OJJDP. Those are the 
linkages between OJJDP and how important they are, funding, as 
well as the kind of evidence-based paradigm that Title V 
represents.
    Senator Kohl. Mr. Bilchik?
    Mr. Bilchik. To provide more of a national overlay to that 
response, which I think is right on target, I think that what 
we see that is effective in prevention are programs that 
respect the different dimensions of young people's lives. I 
mean, there's science behind this, Senator Kohl, that we've 
known for a while, that if we pay attention to a young person's 
developmental stages and issues with school, family, peer 
group, opportunities for excelling, development of skills, that 
we are successful in reducing delinquency.
    It's one of the reasons why Congress has invested in the 
JJDP Act, why we invested in Title V, why we invest separately 
in some community-based programs like Boys & Girls Clubs, Big 
Brothers and Big Sisters. We need to make sure, though, that we 
keep a focus on engaging these young people where they live, 
that we can't think that we're somehow going to wait for a 
magical moment in time and say, well, this child is in enough 
trouble, we need to move them to this special place and care 
for them.
    We need to pay attention to those elements in their lives. 
Every one of the successful programs that we point to in the 
science respects those individual elements of family, 
community, peer group and school, as well as the individual 
young person's life challenges they're facing, and those are 
the reasons they've had success.
    Senator Kohl. Ms. Ambrose?
    Ms. Ambrose. The only thing that I would add is that, in 
Pennsylvania, what we found is that fidelity to these models is 
very important and sometimes an initial investment in creating 
and building up the infrastructure and the staffing that's 
necessary to provide these services the way the research says 
they should be provided requires more funding than we're able 
to put forward as the State itself. So, obviously the support 
of OJJDP and the initial funding is a very critical example.
    The other thing that we're working on in Pennsylvania is 
building a center for evidence-based practice so that we can 
bring that research and that knowledge and that technical 
assistance to the local communities and do exactly what 
Wisconsin has done and what Mr. Bilchik has referred to, which 
is involving the schools, involving the families, involving the 
communities and solving the problem, because locking up kids is 
not the answer.
    Senator Kohl. Thank you.
    Chief Miranda.
    Chief Miranda. Well, Senator, I think that the panel has 
described the science behind trying to keep these kids out of 
trouble. It's fairly basic for me, is to demonstrate to them 
the opportunities in life that exist and put them on the right 
track, whether it's getting involved with a social service 
agency such as a Boys Club, or a group like that, that 
demonstrate to them what the problems will be if they do get in 
trouble, because sometimes it's not very observable to them, 
what crime can do to them and how it can affect their lives and 
their families' lives. So when you invest in those kinds of 
issues and put some money behind it and some process behind it, 
I think it becomes observable in terms of what the right track 
should be for these young people.
    Senator Kohl. Thank you.
    Mr. Flores, given how these previous dollars are used--I 
think a pretty unanimous opinion--so well at the local level to 
reduce the level of juvenile justice and to improve the quality 
of prevention and rehab, and understanding that these dollars 
on the whole are really a pretty small part, an infinitesimal 
part, of the Federal budget. What is the point of reducing 
assistance, and what is the message that we're sending when we 
reduce assistance to these important juvenile programs?
    Mr. Flores. Senator, thank you for that question. As I look 
at the budgets and as I look at the core requirements and the 
scheme that is contained within the JJDP Act, as I said in my 
testimony, I believe that they are important and need to be 
continued. I look at the OJJDP's annual budget as almost a 
magnet. One of the things that we've done over the past several 
years is made an additional investment to try and really 
leverage resources from other departments.
    For example, in 2005 we provided $2.5 million to the 
governor's office in Wisconsin to work to address gang issues 
in Milwaukee. We did the same in three other States, to really 
try to run a pilot. That was predicated on the concept that the 
local community knew best how to address their needs, but what 
they lacked, really, was flexibility.
    So my hope is that as Congress takes a look at 
reauthorization, it will assure that in the future there is 
flexibility so that when those dollars go out, whether they be 
Title V, which is the only dedicated source of funding for 
strictly prevention programming, that it also take a look at 
the other parts of the Act to make sure that those dollars can 
be driven down to the local community and really put to use 
alongside other dollars.
    So, for example, we have attempted to support the issue of 
truancy. Why? Because we understand, if we want to really 
address the needs of kids, we want to make sure that they're in 
school, that it's a place for them to learn, it's a very safe 
place for them to be, then we can leverage programs off of 
those dollars that are already committed in the school system.
    We have brought, through the gang initiative and through 
other efforts over the past several years, the business 
community. We really are trying to push down concepts of early 
intervention that's consistent, which engages parents, and 
which is well organized.
    One of the things that I believe is really important, 
especially in rural areas, is that we provide to rural States 
and States with large geographic boundaries the ability for 
them to map their resources and really understand what programs 
already work. There's a model programs guide. There is a new 
Web-based site that States can use today to take a look at 
where resources are currently located, the needs in the 
community, the level of community disadvantage.
    So with those, the dollars that come out of OJJDP that the 
Congress puts into that account really act as a magnet. We can 
leverage off those dollars as we've done very successfully, and 
a tremendous amount of work has been done by the States in 
taking those dollars, matching them with State funds, and then 
also finding ways to leverage nonprofit organization work that 
is already going on, and philanthropies that are currently also 
interested in this work. So, again, I would urge the Congress, 
when it looks at the reauthorization, to assure that there's 
really some flexibility in how these dollars are spent.
    Mr. Bilchik. Senator Kohl?
    Senator Kohl. Go ahead.
    Mr. Bilchik. If I could respond to Mr. Flores' response. I 
think he hits on an important note, that many of the funds that 
OJJ puts out are a magnet. What's happened over the last number 
of years, however, is that it has become a smaller and smaller 
magnet. It's hard to draw people's attention. It's hard to draw 
their partnership when you're offering less and less in terms 
of your investment and in terms of your leadership. That is not 
a personal comment about Mr. Flores. It's about a set of 
dynamics that have existed these last few years that have 
limited and begun to dismantle some of the functions of OJJDP. 
This reauthorization provides Congress clear opportunity to say 
to the administration, say to the field we understand the 
importance of this office, we understand the importance of this 
Act, it's a living, breathing document that we need to make 
sure we bring to life each and every reauthorization.
    Senator Kohl. Before we turn to Senator Specter, in 
response to you, Mr. Flores, juvenile justice programs, five 
years ago, received $556 million. This year, the administration 
is requesting just $250 million for juvenile justice programs, 
which is more than a 50 percent cut over the past five years. 
Notwithstanding everything you've said, that's pretty 
staggering. To me and to many others, it represents a 
statement--I don't know how else to interpret it--with respect 
to the level of importance that this administration attaches to 
Federal assistance for juvenile justice programs.
    Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.
    This is a very important hearing and we appreciate your 
coming in. You should not draw any conclusion that the paucity 
of Senators here is any reflection on the importance of the 
matter. This is a very busy place. I have to excuse myself in a 
few minutes. We're confirming the Secretary of Veterans Affairs 
while this hearing is going on, and there are many, many 
matters which are pending.
    The issue of juvenile justice and taking care of the young 
people to try to lead them out of a life of crime is a very, 
very vital subject. The first committee chairmanship I had 
after being elected in 1980 was to chair a subcommittee, which 
I did for six years. The experience which I had as District 
Attorney in Philadelphia persuaded me that there was a way to 
deal with the crime problem. I believe you need to segregate 
out the career criminals that have life sentences, and three or 
more violent offenses--burglary, robbery, rape, drugs, found in 
possession of a firearm. The law provides for a life sentence.
    We find that 70 percent of the crimes are committed by 
recidivism. Then we have first and second offenders. This 
committee has turned down a bill called the Second Chance Act, 
which was designed to give offenders who are not juveniles a 
second chance. It's geared to realistic rehabilitation.
    There's no surprise, if you release a functional illiterate 
from jail without a trade or a skill, he'll go back to a life 
of crime. Juveniles are the most important if you catch them at 
an early stage. We see the crime statistics in America today. 
They're overwhelming, with 400 homicides in Philadelphia last 
year.
    As outlined in my opening statement, we're looking for 
mentoring. When you talk about curing the longstanding problems 
of violent crime and the underlying causes of crime with 
education, housing, and job training, you're talking about a 
very difficult matter. I regret to say that there's not been 
any progress on that since the days when I was District 
Attorney decades ago.
    But what we're trying to work with, is mentoring. We find 
that a lot of these at-risk young people come from family with 
no father and a working mother. If we can team them up with an 
adult who can give them some guidance, I think it could have 
very positive short-term benefits. Toward that end, we have 
made $25 million available to five cities, one of which is 
Philadelphia. The Labor, Health & Human Services bill has $1 
million for Pittsburgh. I've held hearings on this subject all 
across the State. Reading, Pennsylvania is the 21st most 
dangerous city, which is an accolade that ought to be changed.
    Ms. Ambrose, let me start with you. Thank you for the work 
that you do at the Bureau of Child Welfare and Juvenile Justice 
Services. You've been Director for the Commonwealth of 
Pennsylvania. How would you utilize existing funds that will 
provide a rifle shot and more mentoring for these at-risk youth 
in our State?
    Ms. Ambrose. I think that mentoring can be a very effective 
prevention program for youth who are truant. I think they are 
early identifying factors for kids who are most likely to get 
involved in the juvenile justice system, and mentoring could be 
a very important resource for some of those youth who are 
identified in school.
    Senator Specter. How about the funding? The governor has a 
lot of surplus money, I know that. How about finding some of 
it? You know, I gave Governor Rendell his first job out of law 
school?
    Ms. Ambrose. I did not know that, Senator.
    Senator Specter. He was a promising young law student at 
Villa Nova. Now he's governor of the State, making a lot of 
promises.
    Ms. Ambrose. That was a good call, I think.
    Senator Specter. A good call? I made him chief of the 
Homicide Division and made him famous, and he got to be mayor 
of Philadelphia, then governor.
    Well, you join my voice. I've talked to him about it to see 
if we could get some more of the State resources to mentoring.
    Mr. Flores, you have referenced mentoring specifically in 
your opening statement. My time is just about to expire. The 
good fairy has given me additional time. Thank you, good fairy.
    Mr. Flores, how would you approach the mentoring issue?
    Mr. Flores. One thing that has to happen, is that we need 
to bring a little bit more order. There are mentoring programs 
scattered across the entire Federal Government, so the 
Coordinating Council has provided funding to the Departments of 
Health and Human Services and the Corporation for National 
Community Service to put together a Federal Mentoring Council. 
That council, for the first time, is keeping oversight over all 
of the different disparate mentoring efforts that are under 
way, whether they're funded under OJJDP or the Department of 
Health and Human Services Children's Bureau.
    I would say that one of the key parts, though, is really 
engaging the minority community. I have engaged in extensive 
conversations with the Hispanic National Bar Association, the 
National Bar Association, the American Bar Association, and 
just recently --
    Senator Specter. How about the non-minority community?
    Mr. Flores. Well, they currently represent by far the 
largest number of adult mentors that are currently 
participating. Our work with the national office of Big 
Brothers, Big Sisters, as well as working with faith-based, 
small community organizations to get their members out of those 
buildings and really to partner, is really key. I think that 
part of what has to happen, is more education has to go out to 
what would be considered non-traditional partners.
    Senator Specter. I'd like to stay longer with this very 
distinguished panel, but I have to go to the Veterans Committee 
where we're confirming the Secretary of Veterans Affairs.
    But my very able lawyer in this committee, Ms. Lisa Owings, 
has prepared some really tough questions for the record, so I'm 
going to submit those questions to you to get the benefit of 
your thinking. Thank you very much for coming in.
    Thank you, Mr. Chairman.
    Senator Kohl. Thank you very much for being here, Senator 
Specter. Talking about Title V prevention programs, as we know, 
funding has been on a serious decline. Last year, Title V 
received only $64 million--that's for the entire country--which 
was down from $95 million just five years ago, which is a 33 
percent cut. That a successful and critically important program 
like Title V receives such little funding is deeply troubling. 
I know that our local communities can leverage this funding to 
accomplish great things, but I find that the diminished funding 
for this program is very, very disappointing.
    Before we turn to the others with respect to how these cuts 
have impacted their communities, again, Mr. Flores, what's the 
point? What kind of a message is this administration trying to 
send?
    Mr. Flores. Senator, OJJDP and the Department, as well as 
the Administration, are absolutely committed to the safety and 
well-being of children. If you take a look at the work that's 
been done under Title V, whether it's anti-gang work, whether 
it is under-age drinking, work in the communities across the 
country, whether you talk about the work that's been done in 
tribal communities, one of the things that those dollars 
provide is a point of leverage, but they do require that States 
and communities come together to make the most of those 
dollars.
    One of the opportunities that we have before us with 
respect to Title V is model programs guides. One of the things 
that we're committed to doing is making sure that money is not 
wasted. There's been a tremendous amount of research done. 
There's been a tremendous amount of documentation now and data 
collected that gives us a very good idea of the programs that 
are very effective. So those programs, that technical 
assistance is available to the States.
    I would ask, certainly, that as you consider the 
reauthorization, one of the things that's been very helpful are 
the set-asides that Congress included in the JJDP Act. I'm not 
sure whether or not Congress intends to change those 
percentages, but they provide us with tremendous flexibility to 
work with States, work with communities to help them identify 
resources.
    I will say that in Richmond, Virginia, for example, we 
worked with them on gang issues, initially because we chose a 
very, very challenging neighborhood in which to work. The 
initial feedback was, there are no resources in this community. 
If we had those resources, we would have already put them to 
work.
    As a result of technical assistance and assistance with a 
mapping tool, the community was able to identify hundreds of 
resources, not just financial resources, but business 
opportunities, foundations, places where now kids are getting 
summer scholarships, where they're being employed. It's really 
turned that situation around, so that now they're much better 
able to leverage existing programs that are funded through 
OJJDP, Boys & Girls Clubs, mentoring programs.
    We've also been able to attract--and I think this is key--
the health and hospital system in the City of Richmond. By 
bringing those resources in, we now have an opportunity to 
address not only what people may think is the appropriate 
target, teenagers, but we can work with moms who are 13, 14, 15 
years old and now find themselves with a baby. So as opposed to 
waiting for that to turn into a substantial problem, children 
to be hurt or girls dropping out of school, now the City of 
Richmond is able to really begin to push.
    That comes as a result of partnership and it is a testament 
to the fact that even small amounts of dollars, when used 
effectively and leveraged through TA, can really make a big 
difference in the community. So, I would hope that that 
flexibility would continue.
    Senator Kohl. All right.
    Any of you else? Ms. Garton, Ms. Ambrose, Chief, if you'd 
like to comment on these cuts and the impact they've had on the 
programs that you're trying to get off the ground and see 
perpetuated?
    Ms. Garton. Yes, I would, Senator Kohl. Thank you.
    I would just like to highlight a program in Wisconsin that 
the SAG initiated which is called What Works Wisconsin. We 
commissioned a report to be written by our partners at the 
University of Wisconsin to mirror, to some degree, the work 
that had been done by the Washington State Public Policy 
Institute on cost-effective programs. We have been 
disseminating the results of that research over the last two 
years in the State through trainings and a series of research-
to-practice briefs.
    We've recently done a survey of all of our grantees in the 
State of Wisconsin and they are begging for help to use 
evidence-based programs. Getting technical assistance down to 
the county level and down to the Departments of Human Services, 
to the schools, to the law enforcement agencies to help shape 
these programs, costs money, and with only $50,000 coming into 
the State, there is no infrastructure that we're able to 
develop to actually make that happen.
    I was very thrilled to read about the project in 
Pennsylvania that's going to be developing a center around 
evidence-based services and helping counties to implement them. 
Without that sort of help to counties, they simply don't have 
the wherewithal to be able to make those changes to their 
programs.
    Senator Kohl. Ms. Ambrose.
    Ms. Ambrose. Yes. I mean, the reason that we've really had 
to build the Center for Evidence-Based Practice is because 
we've had to replicate what I think OJJDP used to do, which is 
provide the research and technical assistance that's necessary 
to help the States and local governments get these programs off 
the ground.
    What we've seen in Pennsylvania is that many of these 
providers who have the very best of intentions in providing the 
service at a local level need a lot more technical assistance 
because real sustained attention to fidelity of the model is 
the key to successful outcomes in these programs.
    So without the support of OJJDP, Pennsylvania has been 
forced to use our own funding, in addition to some small 
Federal funding, to really create that resource in 
Pennsylvania. That's a difficult thing to do, and it seems to 
be a replication and a duplication of what really the Federal 
Government could be doing, and has done in the past.
    Senator Kohl. Chief Miranda.
    Chief Miranda. Senator, I think the biggest issue in terms 
of crime and in terms of us as a Nation dealing with it, is 
complacency. There have been drops in crime over the past few 
years, and with that the programs and initiatives that had been 
in place, I think, can be deemed as being successful. But when 
the funding dries up, when it dwindles, there's an expectation 
by communities to continue to be aggressive and to continue to 
make our communities quality places to live.
    So whatever programs that we have in place have to be 
supplemented because there's an expectation that we are going 
to make our communities safe, and it impacts us in terms of our 
operating budgets and in the government in terms of providing 
other services. So, in general, there are a number of programs 
that have been put in place and we've had to subtract from them 
and supplement them from our own funding, but overall it 
impacts the operation of our police departments. So again, with 
the drops in crime, I think the issue of complacency has become 
the paramount factor that we have to consider.
    Senator Kohl. Thank you.
    We talk about prevention, of course, and it's very 
important. But the other important element is getting kids back 
on track. Once they have had run-ins with the law, intervention 
and treatment at an early stage, as we all know, will help to 
prevent further violent behavior and steer young people in the 
right direction before it's too late. That is true as a general 
matter, but not true in every case. What can the Federal 
Government do to help more effectively dealing with violent 
serial juvenile offenders? Do you want to tackle that one, 
Chief?
    Chief Miranda. Senator, I believe that there are some 
criminals out there who need to be put away and locked up to 
keep our communities safe, but I believe that there are a 
number of young people out there, if put on the right process, 
could be contributing members to our society. As I said before, 
just arresting them and putting them in jail hasn't worked and 
we must develop processes, programs, and initiatives that 
analyze what works and put those practices into place.
    We talked about mentoring. One of the comments that I 
wanted to make is that people that are in prison and people who 
are in gangs understand that concept and they are mentoring 
these kids, but they're mentoring in the wrong way. So an 
investment in terms of those kinds of programs, those kinds of 
initiatives that take them away from the criminal element and 
put them on the right track is the answer from me in terms of 
where we should be putting our dollars.
    Senator Kohl. Ms. Ambrose.
    Ms. Ambrose. Thank you. There's actually a very important 
study that McArthur has invested in called Pathways to 
Desistence. It's a study comparing Phoenix youth and 
Philadelphia youth. It hasn't been completed, but it's been 
going on for about six years, analyzing those kids who have 
been chronic violent offenders in both of those cities and 
trying to gather some data about what it tells us about what 
works about the system, and maybe what doesn't.
    One of the findings is that it's a relatively small 
percentage of youth who are going to become persistent, 
chronic, violent offenders, about 7 percent. I think what's 
important that we do in Pennsylvania, is we're trying to use 
assessment and evaluation tools to help identify who those 
youth are and make sure that the community protection issues 
exist for only those kids who need it.
    For the other youth, we really should be looking at their 
individual needs and creating a continuum of care that responds 
to those individual needs by looking at the family and the 
community and the school and using those community resources to 
build a program that supports that youth, and only when there's 
a community protection issue should a youth be put into a 
secure setting. That's really important. I think that using 
research to identify what resources need to be available in a 
community based on those youth is something that should be 
supported by the Federal Government.
    Senator Kohl. Thank you.
    Ms. Garton?
    Ms. Garton. Yes. I agree with everything that the other 
members of the panel have mentioned, but I would suggest that 
even for youth that have been placed in correctional 
facilities, who are arguably some of the most violent 
offenders, even those youth can be turned around. We have a 
very successful program in Wisconsin called the Mendota 
Juvenile Treatment Center program, which is housed in one of 
our mental health centers.
    The youth correctional folks will refer the kids who are 
the least able to adjust to the institution to this program 
because of violent episodes, usually within the correctional 
facilities. These kids are clearly some of the worst kids that 
we have in the State of Wisconsin.
    The programming that has been developed, the protocols that 
have been developed by the Mendota Juvenile Treatment Center 
program, have had tremendous results. It's been in place for 
almost close to 10 years now. They've done effectiveness 
studies, as well as cost-effective studies.
    For me, the most compelling statistic that comes out of 
that program is that in a study of similarly matched kids, some 
who received the treatment, some who remained only in the 
correctional institution, that of the kids that remained in the 
correctional institution, within a six-year period, 18 
homicides were committed by those kids. The children, the youth 
that had received the treatment at Mendota, there were zero 
homicides.
    To me, that tells you that children/youth are malleable, 
they can be changed. The kind of research that they're doing 
right now at Mendota is focused on the reduction of cortisol 
levels in the children/youth's --
    Senator Kohl. Those programs cost some amount of money. Is 
that right?
    Ms. Garton. It costs more, yes.
    Senator Kohl. Mr. Flores? Mr. Flores, if you have any 
doubt, express it. She said the program, those youths that 
received no treatment were responsible for 18 homicides; those 
youths that went through a program were responsible thereafter 
for zero. Now, I'm not suggesting this is necessarily a 
national kind of a statistic, but it's meaningful. She believes 
it. What is your answer to her? It costs money.
    Mr. Flores. Senator, these programs do require resources, 
there's no doubt about that. The Department of Health and Human 
Services, through SAMSA, provides funding. It's not just the 
OJJDP money that we need to be talking about here. I think it's 
important for Congress, as it takes a look at these 
expenditures, to continue to encourage the collaboration 
between SAMSA and the Administrator of OJJDP, to continue to 
work together to make sure those dollars are available.
    I would add, because I want to make sure it's clear here, 
we start from the proposition that detention is really 
something that's only appropriate in those cases where we have 
a public safety issue. We get much better benefit, both to the 
general public as well as to the youth who are in the system, 
when we intervene very early with something that matches the 
kind of event that we're talking about.
    We do have a situation where there are some communities 
where kids are not paid attention to until they become a 
seasoned criminal or they've done something major. Balance and 
restorative justice principles programs, such as Youth Courts, 
ways of making sure that intervention is early and that 
penalties are in line, all of those send the appropriate 
messages to those minors, that we're going to get engaged, 
you're important, you matter.
    So I share Deirdre's concern here that we need to make 
sure, as we're looking at these youth, even where they have 
committed a serious event, we need to make sure that we're 
taking into account the fact that when you're talking about a 
13-, 14-, or 15-year-old, we believe that these are kids who, 
except in the rare event, can be changed, can be taught, can 
have their behavior changed.
    Senator Kohl. Then why cut funding?
    Mr. Flores. Again, Senator, this funding, even going back 
to five years ago and the level there, OJJDP was never viewed, 
I don't believe, by the Congress as a source of complete 
funding. We really were a place where we were responsible for 
spurring on novel efforts, really trying to bring innovation 
into the juvenile justice arena. We did it in partnership, and 
we've done it increasingly in partnership so that this year, 
for the first time, we've got grants that went out from the 
Department of Labor that address job training programs for kids 
who are leaving detention and aging out of foster care.
    Those were decisions that were made in tandem by the 
Education and Training Administration over at Labor, together 
with members of my staff. So we're trying to bring those 
dollars together so that communities really, when they look at 
us, we want them to continue to look at OJJDP as a critical--
and they're a most important partner, but also to remember that 
there are other agencies that can help.
    Senator Kohl. Mr. Bilchik?
    Mr. Bilchik. I think the points that Mr. Flores makes are 
well taken. I go back to the proposition, though, that unless 
there is an adequate investment in the Office of Juvenile 
Justice and Delinquency Prevention, that it can't serve that 
role that he describes. The OJJDP has never been viewed, as he 
said, as the funding source for a majority of juvenile justice 
activities in local communities. That's true. But it grew in 
the '90s into a robust partner for States and localities.
    With the funding that had been in place even at that level, 
which I would argue should have been increased more, it was 
able to play that role. It had a full cycle of activities 
involving research, training, publications, and demonstration 
programs. With that reduction of funding, they have not been 
able to do that. And further, with the dismantling of some of 
the functions no longer contained solely within the office, 
they also seem a less vibrant entity to rely upon as a partner.
    So I'd have to say that any request that's a lower amount 
of funding is unconscionable in terms of fulfilling the mission 
of the office. It simply cannot do its work in light of that 
funding level and the dismantling of its functions.
    Senator Kohl. Would anybody like to make a comment before 
we bring this hearing to a close? Anything at all on your mind, 
anything you'd like to say?
    Mr. Bilchik. I'd like to add one additional point, Senator 
Kohl.
    Senator Kohl. Go right ahead, sir.
    Mr. Bilchik. I mentioned earlier that I think the Act and 
the office are living, breathing entities. Times change. 
Circumstances change and the Act needs to be revisited during 
reauthorization to look at those circumstances of change. We've 
seen a surge in kids transferred into the criminal courts. Most 
of them that are in the adult criminal court, either through 
transfer or original jurisdiction, are non-violent offenders. 
They're property offenders, they're drug offenders.
    We need the office to be focused through reauthorization on 
that issue of young people put in adult jails under the age of 
18 when they're not even convicted as an adult, even just 
pending trial. We need to look at some of those issues.
    On the disproportionality issue that was spoken to so 
eloquently earlier, we need to ratchet up the provisions of the 
DMC requirement so the office is doing more to engage local 
communities in bolstering their focus and the activities they 
take around reducing the disproportionate confinement or 
contact of minorities in the juvenile justice system. Those are 
two that I just wanted to comment on in addition to what I had 
said earlier.
    Mr. Flores. Senator, if I could just make some comments.
    Senator Kohl. Mr. Flores.
    Mr. Flores. With respect to DMC, one of the things that 
OJJDP has been, I think, extremely skillful in accomplishing is 
really through leadership, working with States to make sure 
that DMC continues to grow as an area of importance to States 
and communities.
    In 2002, there were five State DMC coordinators. Now, 33 
States have a coordinator that focuses on disproportionate 
minority contact. All of the States now have a plan. We are 
continuing to provide training and TA. For me, the DMC issue 
strikes at the heart of the justice system. It is an issue 
which, for any officer of the court--and as a lawyer I am one--
really strikes at the issue of justice: is the system perceived 
of as fair? So I do want to assure the committee that this is 
an area of great importance to me, and has been a priority 
since I became Administrator in 2002.
    Senator Kohl. Ms. Garton.
    Ms. Garton. Thank you. Yes. I would like to just echo the 
importance of the DMC issue right now. I think it is an issue 
that we, for example, in Wisconsin are going to have to face 
increasingly as the demographics in the State change. We know 
that in one county in particular, Allegheny County, that there 
is a shift in the population. What we would like to do, is get 
ahead of the problem. We have folks who are aware of these 
demographic changes and they want to get ahead of the problem, 
the Departments of Human Services, the law enforcement 
agencies. What they need is help in planning how to do that, so 
Title V money that focuses on that is really critical.
    The very structure of Title V supports evidence-based 
activity. I think that you have to understand as well that if 
those evidence-based programs and services are to be translated 
into counties and cities and municipalities, there needs to be 
support in order to be able to do that.
    Senator Kohl. Thank you.
    Ms. Ambrose.
    Ms. Ambrose. Thank you. I think that one of the things I'd 
like to leave you with is the fact that there are many things 
that we know about what works in the juvenile justice system. 
OJJDP must take a leadership role in leading the efforts to 
implement those things at the local level. There's so much good 
research about what happens in detention and the JDAI 
initiative, and the fact that DMC is something that we know 
exists every day, in almost every jurisdiction, and we've been 
talking about it for 25 years but we've never really done 
anything about it.
    So what I would encourage this committee to do, is not only 
reauthorize the JJDPA, but really think critically about what 
needs to be put into the Act to strengthen it, because that's 
what's necessary. I think there are tons of excellent research 
out there about what we should be doing and what we shouldn't 
be doing, and that OJJDP needs to take a leadership role in 
monitoring what States are doing for youth in this country.
    Senator Kohl. Thank you. We'd like to thank all of you who 
are here today and who have shared your thoughts and your 
experiences on juvenile justice. Your testimony, your comments, 
and your thoughts will be very important as we work toward 
reauthorization. We will keep the record open for another week 
so that Senators can address questions to you and expect 
responses.
    Again, we thank you for being here today. This hearing is 
adjourned.
    [Whereupon, at 11:42 a.m. the hearing was adjourned.]
    [Questions and answers and submissions follow.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
